                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     EPA Compliance With
                     Retention Incentive
                     Regulations and Policies
                     Report No. 14-P-0245                   May 2, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Leah Nikaidoh
                                                    Darren Schorer
                                                    Catherine B. Allen




Abbreviations

CFR           Code of Federal Regulations
DFAS          Defense Finance and Accounting Service
EPA           U.S. Environmental Protection Agency
HR            Human Resource
HRO           Human Resources Officer
OHR           Office of Human Resources
OIG           Office of Inspector General
OPM           Office of Personnel Management



Hotline                                        Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
through one of the following methods:          contact us through one of the following methods:

email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:    EPA Inspector General Hotline        write:    EPA Inspector General
          1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2410T
          Washington, DC 20460                           Washington, DC 20460
                       U.S. Environmental Protection Agency                                                14-P-0245
                       Office of Inspector General                                                        May 2, 2014



                       At a Glance
Why We Did This Review              EPA Compliance With Retention Incentive
On August 27, 2013, a member        Regulations and Policies
of the U.S. Senate Committee
on Environment and Public            What We Found
Works requested that the
                                    The EPA did not comply with Office of Personnel        EPA did not comply with
U.S. Environmental Protection                                                              Office of Personnel
Agency (EPA), Office of             Management regulations or agency policies on
                                                                                           Management regulations
Inspector General (OIG),            retention incentive pay. From 2006 through 2013,
                                                                                           or agency policies on
initiate work in connection with    retention incentives were paid to 13 EPA               retention incentive pay.
a fraud committed by John C.        employees totaling $667,376. Eleven employees
Beale, a former Senior Policy       received retention incentive pay totaling $481,819.
Advisor with the EPA’s Office of    For 10 of the employees, no documentation of the required annual
Air and Radiation. In particular,   recertification was available. One employee received retention incentive pay for
the committee member asked          4 years beyond the date of a promotion.
the OIG to determine EPA
policies and processes that         EPA employees received unauthorized retention pay due to:
“facilitated” Beale’s fraud.
Although the EPA authorized           Agency and management confusion over the requirement for annual
retention incentive pay to Beale       recertification of retention incentive pay.
until 2003, the agency                The agency’s human resource system lacking internal controls to track,
continued to make retention            notify and automatically discontinue retention incentive pay if not properly
incentive payments to him until        authorized.
2013.                                 Lack of follow-up by the EPA’s Office of Human Resources regarding
                                       coding errors for terminated retention incentives.
This report addresses the             Lack of follow-up by EPA managers and employees regarding the status of
following EPA theme:                   outstanding actions being processed by the EPA’s Office of Human
                                       Resources.
  Embracing EPA as a high
   performing organization.          Recommendations and Agency Corrective Actions

                                    We recommend that the Assistant Administrator for Administration and
                                    Resources Management and the Chief Financial Officer:

                                      Determine if any additional evidence exists to justify a retention incentive.
                                       If unjustified, pursue action to recover retention incentive payments made
                                       to EPA employees.
                                      Pursue action to recover the unauthorized retention incentive amounts paid
                                       to the EPA employees who received retention incentive pay beyond their
                                       promotion date or authorized end date.
For further information,
contact our public affairs office   The agency agreed with the recommendations. The agency is working to find
at (202) 566-2391.                  additional evidence to determine if retention incentive payments were justified,
                                    and has initiated the collection processes for the two overpayment cases.
The full report is at:
www.epa.gov/oig/reports/2014/
20140502-14-P-0245.pdf
                           UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                        WASHINGTON, D.C. 20460


                                                                                    THE INSPECTOR GENERAL




                                              May 2, 2014

MEMORANDUM

SUBJECT:       EPA Compliance With Retention Incentive Regulations and Policies
               Report No. 14-P-0245

FROM:          Arthur A. Elkins Jr.

TO:            Craig E. Hooks, Assistant Administrator
               Office of Administration and Resources Management

               Maryann Froehlich, Acting Chief Financial Officer
               Office of the Chief Financial Officer

This is our report on the subject audit conducted by the U.S. Environmental Protection Agency (EPA),
Office of the Inspector General (OIG). The report contains findings that the OIG has identified and
corrective action that the OIG recommends. The report represents the opinion of the OIG and does not
necessarily represent the final EPA position. Final determination on matters in this report will be made
by EPA managers in accordance with established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 60 calendar days. You should include planned corrective actions and completion dates for the
unresolved recommendations. Your response will be posted on the OIG’s public website, along with our
memorandum commenting on your response. Your response should be provided as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want released to the public. If your
response contains such data, you should identify the data for redaction or removal, along with
corresponding justification. Because there are two action officials identified in this report, we request
that the Office of Administration and Resources Management take the lead to provide the agency’s
response.

We will post this report to our website at http://www.epa.gov/oig.

If you have any questions, please contact Kevin Christensen, acting Assistant Inspector General for
Audit, at (202) 566-1007 or christensen.kevin@epa.gov; or Robert Adachi, Director, Forensic Audits,
at (415) 947-4537 or adachi.robert@epa.gov.
U.S. Environmental Protection Agency
Office of Inspector General

       EPA Compliance With Retention Incentive
       Regulations and Policies

       Report No. 14-P-0245,
       May 2, 2014
               Reasons for Review
   Part of continuing work on internal controls of
    payroll and benefits.

   Review initiated on the U.S. Environmental
    Protection Agency’s (EPA’s) policies and procedures
    for paying retention incentives.




                                                          14-P-0245




                                                                  2
            Scope and Methodology
   Performed fieldwork from October 31, 2013, to March 20,
    2014.
   Conducted assignment in accordance with generally accepted
    government auditing standards issued by the Comptroller
    General of the United States.
   EPA Office of Inspector General (OIG) personnel were covered
    in a separate report.
   Determined whether the EPA paid employees retention
    incentives in accordance with federal regulations and EPA
    policy.

                                                              14-P-0245




                                                                      3
       Scope and Methodology (cont’d.)
   Obtained a listing of EPA employees who received retention
    incentives for calendar years 2006 through August 7, 2013.

   Reviewed retention incentive request forms, correspondence
    and SF-50s (if available) for each employee.

   Interviewed staff from the EPA’s Office of Human Resources
    (OHR) and staff from the agency’s Shared Service Centers.

   Interviewed two EPA employees who received retention
    incentive pay in 2013.

                                                                 14-P-0245




                                                                         4
                      OPM Regulations
   Office of Personnel Management (OPM) regulations found in the Code of
    Federal Regulations (CFR) at 5 CFR Part 575:

        o   Authorize payment of incentive for employees:
             •  With unusually high or unique qualifications.
             •  Likely to leave in the absence of an incentive.

        o   Require annual review of the determination to pay the incentive.

        o   Require an authorized agency official to annually document in writing its
            determination to pay the incentive.

        o   Require reduction or termination of the retention incentive
            authorization whenever conditions change.



                                                                                    14-P-0245




                                                                                            5
                           EPA Policies
   The EPA’s Pay Administration Manual:
       o   Authorizes a 1-, 2- or 3-year retention incentive.
       o   Requires annual recertification using the EPA authorization form.
       o   Requires the Human Resources Officer (HRO) to provide
           notification in advance of the annual reauthorization date.
       o   Requires termination if the employee is reassigned or promoted
           to a different position.

   Per the EPA’s waiver policy, the employee is required to
    notify the supervisor and the HRO about overpayments.

                                                                           14-P-0245




                                                                                   6
                                                  Results
    The EPA did not fully comply with OPM regulations or EPA
     policy on retention incentive pay.

    Thirteen EPA employees received retention incentives from
     2006 through 2013 (excluding John C. Beale*).

    The EPA paid a total of $667,376 in retention incentives to
     those 13 employees.

* See OIG Report No. 14-P-0036, issued on December 11, 2013.


                                                                   14-P-0245




                                                                           7
                       Results (cont’d.)
   Of the 13 EPA employees paid retention incentives,
    11 employees received retention incentive pay totaling
    $481,819.
       o   For 10 EPA employees, no documentation of annual
           recertification was identified.
       o   One employee received retention incentive pay for 4 years
           beyond the promotion date.

   No EPA employees currently receive retention incentives.



                                                                       14-P-0245




                                                                               8
                                      Results (cont’d.)
                                     Uncertified             Beyond
                Employee             Incentive*            Promotion**                Total
                        1                    $72,712                                      $72,712
                        2                      83,232                                      83,232
                        3                      33,762                                      33,762
                        4                                           $104,975              104,975
                        5                       1,342                                        1,342
                        6                      29,356                                       29,356
                        7                      16,311                                       16,311
                        8                      13,858                                       13,858
                        9                      22,156                                       22,156
                        10                    26,911                                       26,911
                        11                    77,204                                       77,204
                Total                       $376,844                $104,975             $481,819

 *Amounts were calculated using data provided by the EPA and are subject to reconciliation with payroll records.
**Amount was calculated by the Defense Finance and Accounting Service (DFAS).


                                                                                                                   14-P-0245




                                                                                                                           9
               Uncertified Incentives
   For 10 employees, no documentation was identified to
    support that incentives were authorized annually, as required
    by federal regulations and EPA policies.
   One employee received $77,204 in unauthorized pay. The
    agency had approved a 1-year retention incentive, but the
    agency continued to make uncertified incentive payments for
    over 4 more years.




                                                               14-P-0245




                                                                      10
               Pay Beyond Promotion
   One employee received incentive pay for 4 years, but the
    employee’s incentive should have been terminated in 2009
    because he was promoted.
       o   The agency’s OHR notified the employee about the termination
           of incentive pay in 2009.
       o   The OHR processed the termination in the human resource (HR)
           system in 2009.
       o   The termination action was miscoded in the HR system, so the
           employee continued to receive incentive pay.
       o   In 2013, DFAS issued a debt notice of $104,975 to the EPA
           employee.

                                                                          14-P-0245




                                                                                 11
                How Did This Happen?
   Confusion over the requirement for annual recertification.

   Evidence of the annual recertification was not retained.

   The EPA’s HR system lacks internal controls to track, notify and automatically
    discontinue retention incentive pay if the incentive pay is not authorized by an
    annual recertification.

   The OHR did not follow up with DFAS to verify that termination of pay took
    effect.

   Managers and employees did not follow up with the OHR regarding the status of
    outstanding actions.

                                                                                       14-P-0245




                                                                                              12
              Why Is This Important?
   Unauthorized retention payments were made to 11 EPA
    employees.

   Two EPA employees are disputing the collection process for
    the overpayment of incentive pay.

   The John C. Beale case has placed heightened scrutiny on
    how EPA manages and controls its payroll and administrative
    activities, including retention incentive pay.


                                                                 14-P-0245




                                                                        13
                    Recommendations
   We recommend that the Assistant Administrator for Administration and
    Resources Management and the Chief Financial Officer:

    1.   Determine if any additional evidence exists to justify a retention
         incentive. If unjustified, pursue action to recover retention
         incentive payments made to EPA employees.
    2.   Pursue action to recover the unauthorized retention incentive
         amounts paid to the EPA employees who received retention
         incentive pay beyond their promotion date or authorized end date.




                                                                           14-P-0245




                                                                                  14
                      Agency Response
   The OIG received comments from EPA’s Office of Administration and Resources
    Management and the Office of the Chief Financial Officer and at the exit
    conference held April 23, 2014. Based upon the exit conference, updated
    comments were received from the Office of Administration and Resources
    Management and the Office of the Chief Financial Officer on April 28, 2014.

   Based upon the exit conference and agency comments, we modified some
    wording in the report to clarify our position.

   The agency concurred with key modifications to the report and agreed with the
    recommendations.

   The agency’s comments and the OIG’s response are included in appendix A.

                                                                                  14-P-0245




                                                                                         15
Agency Initiatives and Corrective Actions
   In response to recommendation 1, the agency is working to find
    additional evidence to determine if retention incentive payments
    were justified.
   In response to recommendation 2, the agency has initiated the
    collection processes for the two overpayment cases.
   The agency also has taken initiatives to strengthen its internal
    controls over retention incentives. Specifically, the agency:
      Created a new retention incentive request justification requiring
         detailed documentation.
      Issued an HR bulletin on retention incentives.

      Issued communications in the Management Matters newsletter.

      Developed a new draft human resources incentive policy.

      Created a quarterly retention incentive report.
                                                                           14-P-0245




                                                                                  16
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed-To
    No.      No.                          Subject                          Status1         Action Official             Date      Amount      Amount

     1       14    Determine if any additional evidence exists to            U        Assistant Administrator for                 $300
                   justify a retention incentive. If unjustified, pursue                 Administration and
                   action to recover retention incentive payments                    Resources Management and
                   made to EPA employees.                                               Chief Financial Officer

     2       14    Pursue action to recover the unauthorized retention       C        Assistant Administrator for     4/28/14     $182        $182
                   incentive amounts paid to the EPA employees who                       Administration and
                   received retention incentive pay beyond their                     Resources Management and
                   promotion date or authorized end date.                               Chief Financial Officer




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is unresolved with resolution efforts in progress




14-P-0245                                                                                                                                            17
                                                                                  Appendix A

      Agency’s Comments on Discussion Draft Report
                  and OIG Responses

                                        April 28, 2014

MEMORANDUM

SUBJECT:      OIG Review of EPA's Compliance with Retention Incentive
              Regulations and Policies

FROM:         Craig E. Hooks, Assistant Administrator
              Office of Administration and Resources Management

              Maryann Froehlich, Acting Chief Financial Officer
              Office of the Chief Financial Officer

TO:           Arthur A. Elkins, Jr.
              Inspector General

We have reviewed the discussion draft report entitled Review of EPA’s Compliance With
Retention Incentive Regulations and Policies. The OIG review complements EPA’s on-going
efforts to strengthen its internal controls over payroll management. The EPA believes that the
OIG’s conclusions in the report may be flawed if the OIG presumes that retention incentives paid
were in “excess” if certain documentation was not located. That potential conclusion does not
acknowledge the fact that, in at least some of the cases, the record retention schedules had
expired and therefore the documentation may have existed but was properly destroyed. In other
cases, personnel files for the employees in question have been transferred to a new employer or
to OPM (in the case of retired employees) and, therefore, the EPA would no longer have the
documentation sought by the OIG. We have not been provided working papers from OIG and do
not know if documents were sought from OPM or from new employers for at least four of the
reviewed employees. It is inappropriate to conclude that the incentive pay agreement was
somehow flawed in situations where the retention pay was justified but for various reasons no
documentation could be located.

 OIG Response 1. We recognize that records may have existed and were properly destroyed in
 accordance with retention schedules. Our intent in the discussion draft report was to
 acknowledge that evidence was not necessarily retained for all recertifications. However,
 documentation provided to the OIG indicates managers and OHR were confused about the
 need to determine on an annual basis whether the retention incentive payment is still
 warranted. We recognize that the agency will need to review incentive payments without
 benefit of the documentation required in accordance with EPA policy to make a determination
 whether the incentive pay should be recovered.



14-P-0245                                                                                    18
In the aftermath of the Beale fraud case, the agency implemented a number of changes to the
policies, procedures and processes governing retention incentives. Also, the EPA’s migration to
the Department of Interior Business Center will provide additional functionality in our systems
and provide further protection. Finally, OARM and OCFO prepared a joint report, “2014 Internal
Control Assessments: Travel, Payroll, Parking and Transit,” which evaluated the effectiveness of
the agency’s internal financial management controls in place in 2013.

 OIG Response 2. We acknowledge the agency’s efforts to strengthen internal controls.
 However, no EPA employees are currently receiving retention incentives and we are unable to
 assess the implementation and adequacy of the controls.

AGENCY TECHNICAL COMMENTS

   1. As a result of the Beale case, the agency has been proactive in taking steps to
      strengthen its internal controls over retention incentives which the report does not
      recognize. Some of the specific actions the agency has taken are:

           Created a new retention incentive request justification requiring clear, detailed
            documentation including copies of previous retention allowances, if any, explicit
            periods of coverage and salary adjustment with explicit not to exceed dates,
            signatures by supervisors, management, human resource and financial officials as
            well as an employee signature certification.
           Issued an HR bulletin on retention incentives delineating all requirements for
            approval, justification, documentation and annual review of incentives. The Bulletin
            was disseminated to HR officers, program managers and the HR Shared Service
            Centers.
           Issued communication in the Management Matters newsletter to all agency managers
            dedicated to the topic of appropriate use and management of retention incentives.
           Developed a new draft human resources incentive policy which clearly delineates
            EPA’s implementation requirements and processes. The agency will finalize the
            policy after OPM issues the new government-wide update of a recruitment, relocation
            and rewards incentive directive.
           Created a quarterly retention incentive report drawn from the data in the payroll
            system. The report is provided to the HR Shared Service Centers, the Executive
            Resources Division, and HR PMOs to ensure only designated employees are
            receiving retention incentives.

       In addition to the above, the agency is mapping out and analyzing its payroll management
       processes to further strengthen the internal controls over retention incentives. The
       assessment will, include:

           Documenting the internal controls to manage retention incentives and statutory pay
            limit payments;
           Documenting payroll processing (starting payroll, payroll corrections, payroll journal,
            garnishment reporting, wage type reports, etc.);


14-P-0245                                                                                       19
           Documenting OCFO’s role in conjunction with the shared service provider, including
            payroll posting to COMPASS, debt collection, cash differences, benefit calculations,
            and reconciliation processes;
           Documenting internal controls for each of the office’s processes;
           Analyzing the internal controls and documenting findings;
           Developing recommendations and corrective action procedures; and
           Conducting an A-123 review of the new corrective actions.

          OIG Response 3. We acknowledge the agency efforts to strengthen internal controls.
          We also appreciate that the agency recognizes retention incentives were a
          vulnerability and made an extensive effort to update internal controls to prevent
          overpayments in the future.

   2. The agency does not agree with a potential conclusion that in all cases no documentation
      existed to support the retention incentives for the 13 non OIG employees. In the agency’s
      response to the audit, we have committed to review of a wide variety of documents or other
      information which provides evidence of a need for and establishment of a warranted
      incentive agreement. Some information located to date may be evidence of valid annual
      recertifications. Moreover, as described below, documentation may not currently be
      available at the EPA because of records retention schedule expirations or employee
      separations from agency. For example:

               Transition to the electronic Official Personal Folder (eOPF) caused files to be purged
                of retention incentive documentation. Agency policy on retention allowances
                specifies that servicing Human Resources Officers will maintain retention allowance
                records on the temporary side of the employee’s eOPF and in a separate allowance
                file. The documents were retained in hard copy by the agency in temporary files
                until the records retention requirement was satisfied and then the records were
                shredded. Since agency policy specified a two year retention of the files, the OIG
                assumption that no documents existed to support annual re-certifications may be
                inaccurate. In at least one of the cases, we are aware of some documentation of a re-
                certification request that was maintained by an HR Specialist. Once our review of
                service center re-certification documentation is complete, we will share our findings
                with the OIG.
               With regard to employee separations, there were two employees who retired and
                two who left the agency. As a result, official (eOPF) files are not in EPA
                possession. For the two retirees, as is custom, official files are in the possession of
                OPM’s records center in Boyers, PA. For the departed employees, their new
                employers, if a federal agency, would possess official personnel files. No
                conclusion can be reached on these cases based solely on the fact that
                documentation no longer exists at the EPA.




14-P-0245                                                                                        20
        OIG Response 4. In the discussion draft report we only identified 11 employees as
        having received unauthorized retention incentive pay. Of the 11, two received retention
        incentive pay beyond their promotion date or authorized end date. We acknowledge that
        the agency has initiated the collection processes for these two cases.

        As stated in OIG Response 1, we recognize that records may have existed and were
        properly destroyed in accordance with retention schedules. Our intent in the discussion
        draft report was to acknowledge that evidence was not necessarily retained for all
        recertifications. Considering that there was confusion over the need to recertify every
        year, there is a risk the annual recertifications were not completed. We did find examples
        of the documentation of the initial retention incentive in the employee file but no
        recertifications for years two and three. It is not unreasonable to assume that if the
        documentation for the initial year is available that documentation prepared for the
        subsequent years would also be available.

        As stated in the report, OPM regulations and EPA policies require the agency to review
        employee retention incentives at least annually to determine whether the pay is still
        warranted. An authorized agency official must certify this determination in writing. The
        regulations further state that the agency may continue to pay the retention incentive as
        long as the conditions giving rise to the original determination still exist. Documentation
        provided to the OIG indicates that managers and HR specialists were unclear on the
        recertification requirements and that recertifications may not have been authorized for all
        years that employees received retention incentives. Therefore, the EPA needs to take steps
        to determine if the retention incentives were in fact properly justified for all employees.

   3. We disagree with potential conclusions that agreements for which recertification
      documentation cannot currently be located are automatically deemed not valid or that the
      current absence of, or failure to locate, annual recertification documentation demonstrates
      that employees received excess pay. An examination of each case with consideration
      given to equity and fairness to employees acting in good faith under a presumption of a
      three-year arrangement is warranted. In addition, we note that in the Beale case the OIG
      determined that Mr. Beale was “authorized for two, three year periods” of a retention
      incentive, even though the OIG did not locate annual recertifications for the second
      incentive period. In light of this, similar treatment for the eleven employees with
      incentive agreements may be reasonable.

We are in the process of examining documentation for initial agreements and renewal certifications.
While we have located some documentation, we have not completed our review. We are willing to
share relevant documentation uncovered during the review process, if any.




14-P-0245                                                                                      21
OIG Response 5. As discussed in OIG Response 4, the discussion draft report identified
11 employees with unauthorized retention incentive payments. We acknowledge that the agency
has already initiated the collection processes for two employees.

The retention incentive regulations and EPA policies are clear on the need to provide a written
recertification annually. OPM regulations at 5 CFR 575.311(f)(3) require an authorized agency
official to reduce or terminate a retention incentive when conditions change. A condition change
could be a promotion with an increase in salary or a change in the labor market conditions making
it more likely to recruit a candidate with similar competencies. The EPA Payroll Administration
Manual requires the recommending official to annually determine whether the retention incentive
is still justified. EPA policy requires this determination must be certified by the approving official
in writing.

While agency employees may have operated in good faith under the assumption that their
incentive pay was for a multi-year period, this does not override the agency’s responsibility that
EPA managers and OHR had to ensure that OPM regulations and EPA policies were followed.
Documentation in the files provided to the OIG does show evidence that there were managers
aware of the requirement to recertify annually. Also, a 2008 email from the OHR Policy Division
to the Las Vegas Human Resources Officer provided clarification on retention incentive policy.
The OHR stated that the requirement for annual recertification is in required by regulation and
does not authorize multiple-year incentives.

The agency has recognized that there were vulnerabilities in the internal controls over retention
incentives based on the steps it has taken to strengthen controls. We believe these vulnerabilities
may have resulted in payments of retention incentives that were not justified in accordance with
federal regulations. Our intent in making recommendation 1 was to recognize that other evidence
can be considered by the agency in determining that the retention incentive payments were
justified. For example, the other evidence can include:
   -   Documentation available in locations other than the human resources offices in Las Vegas,
       Cincinnati and Research Triangle Park.
   -   Annual recertifications that had been prepared but destroyed or lost. This could be
       confirmed through interviews with the employee’s supervisor.
It is at the agency’s discretion to take this information to determine if the payments made were
justified or to seek recovery actions.

John C. Beale’s retention incentive pay was not audited as part of this review. However, in
OIG Report No. 14-P-0036, Early Warning Report: Internal Control and Management Actions
Concerning John C. Beale Pay Issues, we reported that Beale was first authorized a retention
incentive in 1991 and his retention incentive pay was recertified annually for 1992 and 1993.
No requests were submitted between 1994 and 1999. A new 3-year request was submitted by the
Office of Air and Radiation in 2000, but no recertifications were prepared or submitted for years 2
and 3. From our review of the Office of Air and Radiation’s analysis of Beale’s retention incentive
pay, the Office of Air and Radiation stated that retention incentive pay “must be reauthorized
every third year.” This is not correct, according to OPM regulations and EPA policies, and
reinforces our position that there was confusion over the need for annual recertifications.


14-P-0245                                                                                          22
AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS


 No.   Recommendation                High-Level Intended              Estimated Completion by
                                     Corrective Action(s)             Quarter and FY
  1    Determine if any additional The agency will continue the       OARM will complete the
       evidence exists to justify a process of searching for          documentation review by
       retention incentive without relevant evidence of initial       May 30, 2014.
       documented, authorized        retention incentive agreements
       annual recertification. If no and renewal certifications and
       additional evidence exists, determine if any recovery
       pursue action to recover      actions are warranted.
       unauthorized retention
       incentive payments made
       to EPA employees.

  2    Pursue action to recover     The agency has already            Completion pending
       the unauthorized retention   initiated the collection          outcome of the labor
       incentive amounts paid to    processes for the two             relations process initiated
       the EPA employees who        overpayment cases.                by the involved
       received retention                                             employees.
       incentive pay beyond their
       promotion date or
       authorized end date.



 OIG Response 6. For recommendation 1, the agency has agreed to take corrective action, but
 did not provide a milestone date for issuing determinations on any recovery actions that may
 be warranted. Therefore, we consider this recommendation to be unresolved, pending a
 corrective action plan that includes milestones dates for the determination.
 The agency agreed with recommendation 2 and has taken corrective action. Therefore, we
 consider the agency’s actions to be complete and we will close out this recommendation upon
 issuance of our report.

Questions regarding human resources issues, can be directed to Susan Kantrowitz, Director,
Office of Human Resources (202) 564-4606; any questions regarding financial issues can be
directed to Jeanne Conklin, Acting Director, Office of Financial Management at (202) 564-5342.


cc: David Bloom
    Nanci Gelb
    Susan Kantrowitz
    Jeanne Conklin
    Stefan Silzer



14-P-0245                                                                                       23
                                                                              Appendix B

                                   Distribution
Office of the Administrator
Deputy Administrator
Chief of Staff
Assistant Administrator for Administration and Resources Management
Chief Financial Officer
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator for Administration and Resources Management
Deputy Chief Financial Officer
Director, Office of Financial Management, Office of the Chief Financial Officer
Director, Office of Human Resources, Office of Administration and Resources Management
Director, Office of Policy and Resource Management, Office of Administration and
       Resources Management
Deputy Director, Office of Policy and Resource Management, Office of Administration and
       Resources Management
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of the Chief Financial Officer




14-P-0245                                                                                 24
